      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION



     U.S. Civilian Uplift in Afghanistan Is Progressing but
       Some Key Issues Merit Further Examination as
                   Implementation Continues




                                          October 26, 2010



SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift
      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


October 26, 2010

The Honorable Hillary Rodham Clinton
Secretary of State
The Honorable Robert Gates
Secretary of Defense
The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan
The Honorable Thomas J. Vilsack
Secretary of Agriculture
Dr. Rajiv Shah, Administrator
U.S. Agency for International Development
Earl Gast
USAID Mission Director to Afghanistan
This report presents the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of the implementation of the civilian uplift in support of U.S.
reconstruction efforts in Afghanistan. It includes two recommendations to examine key issues that have
been raised over the initial stages of the uplift and to develop a mechanism for collecting, analyzing, and
implementing best practices and lessons learned during the uplift.

A summary of this report is on page ii. This performance audit was conducted by SIGAR under the
authority of Public Law No. 110-181 and the Inspector General Act of 1978, as amended. When
preparing the final report, we considered comments from the U.S. Embassy Kabul, which generally
concurred with the report’s recommendations and indicated that U.S. agencies were taking actions to
implement them. These comments are reproduced in appendix III.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                              Page i
                                                           SIGAR Audit-11-2                                           October 2010


                SIGAR
Special Inspector General for Afghanistan Reconstruction
                                                                U.S. Civilian Uplift in Afghanistan Is
                                                           Progressing but Some Key Issues Merit Further
                                                             Examination as Implementation Continues
What SIGAR Reviewed
Announced in March 2009, the U.S. civilian uplift is a key element of the U.S. strategy in Afghanistan. Its purpose is to
increase the amount of civilian resources, including personnel, available to implement efforts to enhance Afghan
governance capacity, improve rule of law, and initiate sustainable economic growth. The strategy also focuses on
advancing these efforts at the sub-national, or field, level. Given the large influx of U.S. government civilian personnel
into Afghanistan, it is essential for agencies to ensure that these civilians have the support needed to achieve U.S.
strategic goals in Kabul and at the field level. This report identifies (1) the types and number of personnel provided to
implement the civilian uplift and the extent to which the life and operational support needs of these personnel have
been met, and (2) key areas of concern raised during the initial stages of the uplift. SIGAR conducted this performance
audit in Kabul and selected field sites in Afghanistan from April to September 2010 in accordance with generally
accepted government auditing standards.

What SIGAR Found
U.S. agencies have deployed nearly 67 percent of the personnel identified as part of the civilian uplift, and to date, have
largely met life and operational support needs in the field. Sixteen agencies, representing 8 departments, are providing
personnel to fill 626 new positions identified as part of the civilian uplift. The uplift will be implemented over two
phases and contributes to an increase from 320 personnel in January 2009 to approximately 1500 personnel by January
2012, according to current estimates. The first phase of the uplift ended in December 2009; the current phase began in
January 2010 and will be completed in December 2011. Of the new positions, 294 will be located in Kabul, with the
remaining positions distributed across locations throughout the country, such as provincial reconstruction teams and
district support teams. As of September 9, 2010, a reported 418 personnel have deployed to Afghanistan, including 227
personnel in the field. Based on SIGAR’s review of Embassy documents and discussions with officials in Kabul and the
field, civilian life and operational support needs have generally been met across the field locations. However,
Afghanistan’s operating environment presents challenges to providing this support, including the lack of adequate
security, which affects civilians’ mobility.
Several key areas merit further examination as the U.S. Embassy implements the second phase of the civilian uplift.
During our review, we identified several topics of concern that field staff at all levels raised over the course of the uplift,
including the effectiveness of training; level of agency guidance on working in the field; and the application of models
for civilian-military integration. In late July 2010, the Embassy in conjunction with State department headquarters
initiated an interagency review of the uplift; however, plans currently do not include a comprehensive examination of
these areas. By including a review of current training and the guidance necessary for working in the field, agencies can
better prepare civilian personnel for their assignments and provide them with the guidance they need to carry out their
duties. In addition, the application of standardized models for civilian-military integration is necessary to move
personnel in the field from a reliance on ad hoc arrangements and individual personalities. Further, the Embassy lacks a
formal mechanism for collecting and implementing best practices and lessons learned at the field level. A mechanism to
monitor and evaluate the results of various efforts and identify corrective actions would enable the Embassy to make
changes that could increase the effectiveness of civilian personnel working in the field.



What SIGAR Recommends
To ensure that the interagency review of the civilian uplift is comprehensive, SIGAR recommends that the U.S.
Ambassador to Afghanistan include the following items as part of the interagency review: training, required guidance
for working in the field, and standardized models for civilian-military integration. In addition, to formally monitor
civilians’ effectiveness in the field, identify shortfalls, and take corrective actions, SIGAR recommends that the U.S.
Ambassador to Afghanistan develop a mechanism for collecting, analyzing and applying lessons learned and best
practices, to include the design and implementation of a series of comprehensive field surveys. In commenting on a
draft of this report, the U.S. Embassy Kabul generally concurred with SIGAR’s recommendations and outlined actions
taken to implement them.

                    For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil


SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                                       Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
U.S. Agencies Have Deployed Nearly 67 Percent of Civilian UPlift Personnel and
    Have Generally Met Life and Operational Support Needs in the Field .................................................. 5
Several Key Areas Warrant Further Examination as the Civilian Uplift Progresses .................................... 11
Conclusion ................................................................................................................................................... 17
Recommendations ...................................................................................................................................... 17
Comments ................................................................................................................................................... 18
Appendix I: Scope and Methodology ......................................................................................................... 19
Appendix II: U.S. Agency Roles in Reconstruction Efforts in Afghanistan.................................................. 21
Appendix III: Comments from the U.S. Embassy Kabul ............................................................................. 22


TABLES

Table 1: Authorized and Filled Positions by Civilian Uplift Phase, as of
    September 9, 2010 ................................................................................................................................. 8
Table 2: Filled Uplift Positions in Kabul and the Field, as of September 9, 2010......................................... 9
Table I: U.S. Departments and Agencies Contributing Personnel to the Civilian
    Uplift in Afghanistan ............................................................................................................................. 21


FIGURES

Figure 1: U.S. Mission in Afghanistan Field Structure .................................................................................. 3
Figure 2: Map of Regional Commands and Provincial Reconstruction Teams in
    Afghanistan............................................................................................................................................. 5
Figure 3: Estimated Growth of Chief of Mission Personnel in Afghanistan, May
    2009 to January 2012 ............................................................................................................................. 7
Figure 4: Percentage of Filled Uplift Positions by Agency, as of
    September 9, 2010 ................................................................................................................................. 9




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                                                               Page iii
ACRONYMS

CALL                      Center for Army Lessons Learned
COIN                      Counterinsurgency
COM                       Chief of Mission
COTR                      Contracting Officer’s Technical Representative
DST                       District Support Team
IPA                       Office of Interagency Provincial Affairs
ISAF                      International Security Assistance Force
MOA                       Memorandum of Agreement
MOU                       Memorandum of Understanding
PRT                       Provincial Reconstruction Team
RC                        Regional Command
State                     Department of State
SIGAR                     Special Inspector General for Afghanistan Reconstruction
USAID                     U.S. Agency for International Development
USDA                      U.S. Department of Agriculture
USFOR-A                   U.S. Forces-Afghanistan




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                              Page iv
      U.S. Civilian Uplift in Afghanistan Is Progressing but Some Key Issues Merit
                   Further Examination as Implementation Continues


On March 27, 2009, the President of the United States announced a comprehensive new U.S. strategy
for Afghanistan with the core objective of disrupting, dismantling, and defeating al-Qaeda and its safe
havens. In addition to calling for an increase in military personnel, the new strategy announced the
civilian uplift, an increase in civilian-led efforts to build Afghan governance capacity, improve the rule of
law, and initiate sustainable economic growth, primarily through agricultural development. The strategy
also focuses on advancing these efforts at the sub-national, or field, level. Given the large influx of U.S.
government civilian personnel into Afghanistan and the importance of achieving U.S. strategic
reconstruction goals, agencies must ensure that these civilians have the support needed to achieve the
agencies’ strategic goals, particularly in the field.

This report identifies (1) the types and number of personnel provided to implement the civilian uplift
and the extent to which the life and operational support 1 needs of these personnel have been met, and
(2) key areas of concern raised during the initial stages of the uplift. We limited the scope of our audit to
civilian personnel 2 deploying under chief of mission (COM) authority. 3 In addition, given the strategic
focus on expanding governance and development efforts at the sub-national level and the substantial
increase in civilians expected to deploy to the field, we focused primarily on Department of State (State),
U.S. Agency for International Development (USAID), and Department of Agriculture (USDA) personnel
assigned to regional platforms, brigade task forces, provincial reconstruction teams (PRT), and district
support teams (DST) throughout Afghanistan. 4

To accomplish these objectives, we reviewed U.S. policies and key strategies for Afghanistan and various
agency documents including State and U.S. Embassy Kabul cables, staffing requests, and agreements
with military and coalition partners. We analyzed Embassy Kabul Management Office data, as recent as
September 9, 2010, and Office of Interagency Provincial Affairs (IPA) data, as of July 12, 2010 on current
and projected numbers of positions created within U.S. Mission Afghanistan and personnel deployed to
Afghanistan as part of the uplift. In addition, we reviewed key practices for interagency collaboration

1
 For the purposes of this report, life support refers to the items needed to sustain personnel such as lodging, food,
water, sanitation, basic utilities, and medical services. Operational support refers to items required for personnel
to carry out their duties, including office space and supplies, communications equipment, site security, and
mobility.
2
    We did not include contractor personnel in our review.
3
 The chief of mission, also referred to as the U.S. Ambassador to a certain country or other specified entity, has full
responsibility for the direction, coordination, and supervision of all U.S. government executive branch employees
in that country, except for Voice of America correspondents on official assignment and employees under the
command of a U.S. area military commander. See 22 U.S.C. § 3927.
4
 For the purposes of this audit, the field, or sub-national level, refers to the regional platform, brigade task force,
PRT, and DST levels.



SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                          Page 1
and strategic workforce planning. During June and July 2010, we conducted site visits to 12 field
locations in Regional Commands (RC) East and South to interview U.S. COM civilian, military, and
coalition personnel. These included the two regional platforms, two brigade task forces, four PRTs, and
four DSTs. We interviewed officials in Embassy Management, IPA, State, USAID, USDA, and the
Departments of Justice and the Treasury at the Embassy. In August and September 2010, we provided
briefings on our preliminary findings to the Assistant Chief of Mission at the Embassy and the IPA
Coordinator, and obtained information on current efforts and State’s planned internal review of the
civilian uplift. We conducted our work at various locations in Afghanistan from April to September 2010
in accordance with generally accepted government auditing standards. A discussion of our scope and
methodology is in appendix I.


BACKGROUND

In March 2009, the President of the United States outlined a new U.S. strategy for Afghanistan, which
was accompanied by a new policy for Afghanistan. 5 In support of this strategy, U.S. Embassy Kabul and
U.S. Forces-Afghanistan (USFOR-A) released the United States Government Integrated Civilian-Military
Campaign Plan for Support to Afghanistan in August 2009, and the Secretary of State signed the
Afghanistan and Pakistan Regional Stabilization Strategy in February 2010. With the core goal of
disrupting, dismantling, and defeating al Qaeda and its safe havens in Pakistan, these documents
delineate efforts to improve security, build Afghan governance capacity, enhance rule of law, and
initiate sustainable development as part of the overall reconstruction of Afghanistan. The strategies
dictate the need to provide additional support at the sub-national level, with a focus on the more
unstable eastern and southern regions of the country. To complement the increased military presence,
the strategies call for a substantial increase in the number of civilian personnel and associated resources
for civilian-led assistance efforts.




5
 The U.S. strategy for Afghanistan refers to the strategy announced in March 27, 2009 and December 1, 2009
speeches delivered by President Obama.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                 Page 2
U.S. Mission Afghanistan Field Structure

The U.S. Mission in Afghanistan is a joint civilian and military effort. Figure 1 shows the structure of this
effort under both the COM and Command ISAF authority.


Figure 1: U.S. Mission in Afghanistan Field Structure



                                  U.S. MISSION AFGHANISTAN
                                       UNITY OF EFFORT

                                          COMISAF         Ambassador

    Regional                                                     Regional
    Command             Regional Commander
                                                            Senior Civilian Rep

    Brigade                   Commander                     Civilian Team Lead
    Task Force              Task Force Staff                State, USAID, USDA

    Provincial        Commander            Agribusiness     Civilian Team Lead
                                           Development
    Reconstruction      PRT Staff             Team          State, USAID, USDA
    Team
                        DST Staff Commander
    District                                                Civilian Team Lead
                     Military elements include security
    Support          forces, ANSF mentors and civil
    Team             affairs teams                          State, USAID, USDA



Source: U.S. Embassy, 10/19/10.

At the U.S. Embassy in Kabul, IPA, which falls under the purview of the Office of the Coordinating
Director for Development and Economic Affairs, 6 is the main Embassy section in charge of overseeing
COM civilian personnel programmatic efforts at the regional platforms, brigade task forces, PRTs, and
DSTs in the field. IPA provides strategy and policy guidance on sub-national governance, stabilization
issues, Afghan capacity-building programs, and civilian-military integration. IPA also manages field
staffing requests and assignments. The Embassy Management Office is responsible for providing
logistical support for all COM civilians deployed to the field. For example, the Management Office
oversees civilian life and operational support.

The International Security Assistance Force (ISAF), led by the North Atlantic Treaty Organization,
oversees coalition military operations in Afghanistan, from Kabul to the district level. Outside of Kabul,
the primary elements of the military field structure are five regional commands (RC), which are
responsible for commanding military forces in their respective regions. These are RC-East, RC-South, RC-
North, RC-Southwest, and RC-West. 7 Because U.S. COM civilians in the field are collocated with military
personnel, U.S. Embassy Kabul established five civilian-led regional platforms parallel to the five RCs to

6
 The Coordinating Director for Development and Economic Affairs is responsible for ensuring that all interagency
economic and development assistance programs are fully integrated and working to meet the U.S. and Afghan
governments’ goals for Afghanistan.
7
 The United States commands RC-East and RC-Southwest, Great Britain leads RC-South, Germany leads RC-North,
and Italy leads RC-West.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                    Page 3
facilitate greater civilian-military integration in the field. 8 A senior civilian representative leads each
regional platform and oversees COM personnel in his or her respective region. The senior civilian
representative serves as the counterpart to the military commander of the regional command, senior
coalition civilians, and senior local Afghan officials in the region. The senior civilian representative
ensures that all U.S. civilian efforts are integrated with ISAF efforts throughout their respective region
and coordinates the work of all U.S. COM civilians within the region, ensures coherence of political
direction and development efforts, and executes U.S. policy and guidance.

In RC-East, brigade task forces form the next supervisory and support level for COM civilians in the field.
The United States leads four of these task forces while France and Poland lead the remaining two task
forces; however, COM civilians are only assigned to the U.S. task forces. RC-South, RC-Southwest, and
RC-West each have one brigade task force. However, these task forces are equal in authority to and do
not provide supervision over the PRTs. The PRTs follow the brigade task forces, or regional platforms
depending on the region, in the Mission field structure. PRTs are civilian-military organizations that
implement efforts to build the capacity of the host nation to govern, enhance economic viability, and
deliver essential public services, such as security, rule of law, justice, health care, and education. Of the
27 PRTs in Afghanistan, ISAF coalition partners lead 15 PRTs, the United States leads 11 PRTs, and U.S.
and coalition personnel co-lead one PRT. Figure 2 shows the locations and lead nations of PRTs in
Afghanistan.




8
  ISAF RC-Capital, the sixth ISAF RC, has responsibility for Kabul and is not included in the COM civilian field
structure. Turkey leads RC-Capital.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                            Page 4
Figure 2: Map of Regional Commands and Provincial Reconstruction Teams in Afghanistan




Source: ISAF and U.S. Embassy Kabul IPA.

The DSTs form the newest level in the U.S. Mission Afghanistan field structure, with the first DSTs
established in 2009. DSTs are subordinate to the PRTs in their respective provinces. These combined
civilian-military teams conduct security, governance, and development activities in their assigned
districts. DSTs are embedded with a military element. There are 35 total DSTs, 20 of which are located in
RC-East.


U.S. AGENCIES HAVE DEPLOYED NEARLY 67 PERCENT OF CIVILIAN UPLIFT PERSONNEL AND
HAVE GENERALLY MET LIFE AND OPERATIONAL SUPPORT NEEDS IN THE FIELD

Sixteen U.S. agencies, representing eight departments, are providing personnel as part of the civilian
uplift in Afghanistan. The uplift will create an estimated 626 new positions over two phases and will
contribute to increasing the number of personnel under COM from 320 in January 2009 to
1,516 by January 2012. Nearly half of these positions will be located in Kabul with the remaining half
distributed across the various field locations throughout Afghanistan, including PRTs and DSTs. As of
September 9, 2010, 418 personnel have deployed to Afghanistan, filling close to 67 percent of the total
positions for both phases. Mechanisms are in place to address civilians’ life and operational support
needs in the field and have generally been met or addressed across the field locations. However, the
operating environment in Afghanistan presents some challenges to providing this support.

SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                           Page 5
Sixteen Agencies Have Provided Almost 67 Percent of the 626 Personnel Expected to Deploy
as Part of the Civilian Uplift in Afghanistan

Sixteen U.S. agencies are contributing personnel as part of the civilian uplift in Afghanistan. 9 These
personnel represent eight departments, including State, USDA, Homeland Security, Justice, the Treasury,
Transportation, Health and Human Services, Commerce, and USAID. These personnel are implementing
multiple programs to advance governance, rule of law, and development, which are three key lines of
effort in U.S. reconstruction strategies (see appendix II). For example, both State and USAID are engaged
in programs to advance governance and rule of law, such as mentoring Afghan government officials at
both the national and sub-national levels. In addition, the U.S. Marshals Service and Federal Bureau of
Investigation 10 are mentoring, training, and equipping Afghan law enforcement entities in an effort to
promote rule of law.

In January 2009, prior to the March announcement of the civilian uplift, 320 U.S. civilians were assigned
to the COM in Afghanistan. 11 By January 2012, the civilians under chief of mission are expected to
increase in number to approximately 1,516 U.S. personnel. According to planning documents, 626
positions were created for the uplift. 12 The total size of personnel under COM and the exact number of
uplift positions are in flux and subject to change. An Embassy Management official stated that, as of
September 16, 2010, the projected size of the Mission in January 2012 may be closer to 1,400 U.S.
personnel, as positions are currently being reassessed. Figure 3 shows the expected growth of COM
personnel in Afghanistan from May 2009 to January 2012 based on U.S. Embassy Kabul projections as of
August 26, 2010.




9
  While SIGAR is considered to be part of the overall increase in the size of U.S. Mission Afghanistan, the office and
its staff are not included as part of the civilian uplift.
10
  The U.S. Marshals Service and Federal Bureau of Investigation are both agencies under the Department of
Justice.
11
     In January 2009, 320 of the Chief of Mission’s 531 authorized base positions were filled.
12
  The civilian uplift is part of an overall increase in the number of civilian personnel assigned to the U.S. Mission in
Afghanistan. In addition to the 626 personnel filling uplift positions, 211 personnel will fill the remaining
authorized base positions and another 359 positions will be created.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                          Page 6
Figure 3: Estimated Growth of Chief of Mission Personnel in Afghanistan, May 2009 to
January 2012
                           1600

                           1400

                           1200
     Number of Personnel




                           1000

                            800

                            600

                            400

                            200

                              0
                            May 2009 September December   March     June 2010 September June 2011   January
                                        2009     2009     2010                   2010                 2012

Source: SIGAR analysis of U.S. Embassy Kabul data.
Note: The data reflect U.S. Embassy Kabul staffing projections as of August 26, 2010.

The first phase of the uplift began in June 2009 and ended on December 31, 2009. This phase created
411 positions, and as of September 9, 2010, almost 96 percent of them have been filled by deployed
personnel. The second phase of the uplift began in January 2010 and will conclude in December 2011
after adding approximately 215 more positions. Only 11 percent of these positions have been filled;
however, this phase is expected to last for two years. Of the 626 new positions, it is estimated that
294 will be located in Kabul while 332 will be distributed across the various field locations. See table 1
for the number of positions authorized and filled as of September 9, 2010. 13




13
  We did not include data on base positions under COM beyond those positions identified to be part of the civilian
uplift. As a result, the agencies listed may have more positions and personnel in Afghanistan than are reflected in
the following tables. For example, on September 9, 2010, Department of Justice agencies had a total of 186
personnel in country; however, only 21 of them deployed to Afghanistan as part of the civilian uplift.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                       Page 7
Table 1: Authorized and Filled Positions by Civilian Uplift Phase, as of September 9, 2010
                                                      Positions Authorized                  Positions Filled            Filled as a
                                                                                                                       Percentage
                                                   Phase I    Phase II     Total     Phase I     Phase II      Total       of Total
                                                                                                                       Authorized

Total Chief of Mission Afghanistan                     411         215       626          394          24       418           67%
      By Location
          Kabul                                        168         126       294          167          24       191           65%
          Field                                        243          89       332          227           0       227           68%
      By Department/Agency
          Department of State                          146         134       280          161          18       179           64%
          U.S. Agency for International
                                                       178          45       223          152           0       152           68%
          Development
          Department of Agriculture                     50          13        63           44           0        44           70%
          Department of Homeland
                   a                                    11            0       11           11           0        11          100%
          Security
                                   b
          Department of Justice                         18          12        30           17           4        21           70%
          Department of the Treasury                     4            8       12            8           1         9           75%
                                            c
          Department of Transportation                   3            2         5           0           0         0             0%
          Department of Health and Human
                  d                                      1            0         1           1           0         1          100%
          Services
          Department of Commerce                         0            1         1           0           1         1          100%
Source: SIGAR analysis of U.S. Embassy Kabul data.
a
 Department of Homeland Security positions include Customs and Border Patrol, Immigration and Customs Enforcements, and
Transportation Security Administration.
b
 Department of Justice positions include the Federal Bureau of Investigation, Drug Enforcement Administration, and U.S.
Marshals Service.
c
    Department of Transportation positions include the Federal Aviation Administration.
d
    Department of Health and Human Services position is filled by an official from the Centers for Disease Control and Prevention.


State, USAID, and USDA contribute the greatest number of civilians to the uplift, accounting for almost
91 percent of the total number of uplift positions identified. Personnel from these 3 agencies have filled
375 positions, or 90 percent, of the total 418 positions filled as of September 9, 2010 (see figure 4).




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                                   Page 8
Figure 4: Percentage of Filled Uplift Positions by Agency, as of
September 9, 2010



                                 Other
                                Agencies
                            USDA 10%
                            11%                      State
                                                     43%




                                USAID
                                 36%




Source: SIGAR analysis of U.S. Embassy Kabul data.

State, USAID, and USDA personnel accounted for all filled positions in the field as of September 9,
2010. 14 Table 2 shows the breakdown of filled positions by department and location.


Table 2: Filled Uplift Positions in Kabul and the Field, as of September 9, 2010
Department/Agency                                            Kabul      Field          Total

Department of State                                           103          76           179
U.S. Agency for International Development                      36        116            152
Department of Agriculture                                       9          35            44
Other departments                                              43           0            43
Total                                                         191        227            418
Source: SIGAR analysis of U.S. Embassy Kabul data.

As of July 12, 2010, approximately 51 percent of personnel in the field were located in RC-East, while 35
percent were assigned to locations in RC-South or RC-Southwest.




14
   The Federal Bureau of Investigation and Drug Enforcement Administration also have personnel located in the
field. However, the Embassy’s staffing records count them as based in Kabul.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                   Page 9
Mechanisms Are in Place to Meet Civilian Life and Operational Support Needs in the Field and
Needs Have Generally Been Addressed

Mechanisms are generally in place to meet civilian life and operational support needs at the various field
platforms across Afghanistan. These mechanisms include status documents that track key life and
operational support requirements and formal agreements with U.S. military and coalition partners.
Based on our review of Embassy documents, discussions with officials both in Kabul and at various levels
in the field, and site visits to locations in RC-South and RC-East, civilian life and operational support
needs generally appear to have been met or have been identified and are being addressed.

In June 2009, U.S. Embassy Kabul initiated an effort to track the status of life and operational support at
the various field platforms. Status documents track 26 key requirements across four categories:
communications, security, work, and service. Our review of documents for five locations in RC-South
determined that there were no substantial deficiencies in the level of life and operational support
provided in the field in that RC. 15 For example, COM civilians had housing, access to medical care, and
some level of communications, such as internet access. In most instances where support needs had not
yet been met, Embassy Kabul was taking steps to address them. In addition, many of the civilians we
spoke to in the field from all five regions reported that they were receiving sufficient life and operational
support. Further, civilian and military personnel participating in interagency life support working groups,
which have been established at the national and regional levels to address concerns about life and
operational support in the field, stated that there have not been any substantial issues with life and
operational support in the field.

To ensure that the life and operational support needs of field personnel are met, U.S. Embassy Kabul
signed formal agreements with U.S. military and coalition partners for the provision of life and
operational support for civilians at field platforms. In August 2009, the Embassy signed two memoranda
of agreement (MOA) with USFOR-A 16 and the ISAF Commander to provide life support, security, and
mobility for COM civilians at U.S.-led platforms. In addition, the Embassy has memoranda of
understanding (MOU) with the United Kingdom, Lithuania, Sweden, Norway, Canada, Hungary, and
Germany to obtain this support for COM civilians assigned to coalition-led platforms. Under the MOAs
and MOUs, U.S. military and coalition partners agreed to provide U.S. COM civilians with residential
housing, food, office space, emergency medical care, and on-site security. Further, U.S. military and
coalition partners agreed to provide mobility support at platforms that are not self-drive. 17 Currently,
the Embassy is negotiating additional MOUs with Italy, Spain, France, and New Zealand. In addition to
the agreements with U.S. military and coalition partners, the Embassy concluded an interagency MOA
with agencies that have a civilian presence in the field. The MOA specifies how the Embassy and
participating agencies will fund the costs of supporting agency personnel in the field. Currently, USAID
and USDA are the only agencies included, but other agencies may be added as the civilian presence in
the field increases.

While most civilian life and operational support needs have been met, the unique operating
environment in Afghanistan makes it challenging to provide some types of support to civilians in the
field. For example, in April 2010, IPA conducted a survey of all PRTs and DSTs to obtain information on

15
 We reviewed status tracking documents for the following sites in RC-South: PRTs Zabul and Kandahar, and DSTs
Maiwand, Panjway’i, and Spin Boldak. The three DSTs are located in Kandahar province.
16
     USFOR-A is the command that oversees all U.S. military facilities in Afghanistan.
17
 At self-drive locations, U.S. civilians can drive themselves to locations outside of the platform without direct
military support. Civilians must adhere to specific Embassy Kabul security requirements during self-drive
movements. The COM determines whether a field location is self-drive.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                       Page 10
the status of mobility at each location. The results indicated that, among other factors, lack of adequate
security, limited military assets, and low priority for missions at certain coalition-led locations limit
mobility in some field locations. In some less secure areas, military assets are prioritized for security-
related missions rather than governance and development missions; however, officials noted that
sufficient security is necessary before civilians can implement governance and development efforts. In
addition, the survey indicated that a lack of armored vehicles at self-drive locations limits civilian
movements, and civilians we spoke to echoed this. To address this concern, Embassy Kabul is in the
process of acquiring additional vehicles to send to the field.

Senior Embassy officials from the management office and IPA noted that COM civilian engagement with
Afghan officials is more important than the number of movements personnel make outside of their
platforms. For example, some PRTs and DSTs are collocated with provincial and district centers,
respectively, allowing civilians to interact with local officials without leaving the platform. In other
locations, Afghans frequently travel to the platform to meet with civilians. As a result, a senior IPA
official stated that the office is drafting an engagement strategy to shift the focus on metrics that
measure the number of civilian movements outside of platforms to metrics that provide data on how
often civilians engage with Afghan officials at the platform or a different venue. This action should help
the Embassy monitor whether personnel in the field are effectively engaging with their Afghan
counterparts.


SEVERAL KEY AREAS WARRANT FURTHER EXAMINATION AS THE CIVILIAN UPLIFT
PROGRESSES

A number of key areas merit further examination during the second phase of the civilian uplift. These
areas include the effectiveness and quality of training for personnel in the field; the level of agency
guidance for working in the field; the application of models for civilian-military integration; and civilians’
ability to oversee implementing partners. In addition, the uplift’s long-term sustainability is a concern.
Although an interagency review of the uplift has been initiated to reportedly include an evaluation of
recruitment, hiring, sustainability, and incentives, tentative plans for the review do not include a
comprehensive examination of training needs, required guidance for working in the field, and
standardized models for civilian-military integration. Furthermore, the Embassy lacks a formal and
systematic mechanism for collecting and implementing best practices and lessons learned in the field
over the course of the uplift.

Field Staff Have Raised Several Areas of Concern Over the Course of the Civilian Uplift

During our review, we identified several topics of concern including training; guidance, civilian-military
collaboration, oversight of implementing partners, and the uplift’s long- term sustainability.

Limitations in Agency-Specific and Field-Related Training

Agency officials at all levels acknowledged that the process for hiring and placing field staff has evolved
and improved over the course of the civilian uplift. Many of these officials stated, however, that existing
training, although quite beneficial in many respects, should place more emphasis on agency-specific
processes and procedures, and how to work under COM authority with military counterparts under field
conditions.

According to agency officials, the focus during the uplift’s earlier stages was to meet deadlines for
getting personnel into the field. However, they pointed out that, over time, agencies have focused more
on matching people to the appropriate positions and field locations. In addition, senior civilian officials
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                               Page 11
at the regional platforms stated that Embassy Kabul has made greater efforts to obtain feedback from
the senior civilian representatives at the regional platforms during the hiring and placement process.

While some field personnel reported positive feedback on some aspects of the required training, they
also stated that improvements were needed in such areas as agency-specific procedures, working within
an interagency setting, field conditions, and civilian-military dynamics. Numerous officials from both
USAID and State said that many civilians are new to the U.S. government or their current agencies,
although they are technically qualified and experienced. As a result, they lack complete understanding
of their agencies’ missions and operating procedures. USAID field personnel indicated that more
agency-specific training would have been helpful in program design or implementation; grants and
cooperative agreements; or ways to work with implementing partners.

Several civilians from State, USAID, and USDA stated that the Embassy needs more realistic training on
working under COM authority in an interagency context, at field locations, and with military personnel.
Both civilian and military personnel have stated that they would benefit from further training on the
precise dynamics and best practices of the civilian-military relationship, as well as more integrated
civilian-military training. For example, one official stated that training should include more exercises
and scenarios requiring conflict resolution between civilian and military personnel.

Furthermore, some Embassy officials expressed the opinion that there should be a requirement for field
personnel to attend a 2-day introductory training at the Counterinsurgency Training Center-Afghanistan
(CTC-A or COIN Academy) outside of Kabul either before or shortly after beginning their assignments.
According to these officials, field personnel would benefit from a better understanding of how
counterinsurgency concepts are implemented and how to work under field conditions. According to a
senior Embassy management official, the Embassy has decided to make COIN Academy training required
for field personnel, although it has not been decided whether to hold the Kabul-based training before or
shortly after deployment to field locations. Logistics of transporting personnel to and from the training
after deployment to the field is one factor to be considered in this decision, according to the official. On
September 5, 2010, Ambassador Eikenberry signed an action memorandum directing all Chief of Mission
field staff to attend training at the COIN Academy training center at Camp Julien. According to the U.S.
Embassy, IPA and USAID are working with the COIN Academy training center to review the program of
instruction and are prepared to provide support to a five day COIN leaders course and a three day
follow-on district stability framework course.

In commenting on a draft of this report, the U.S. Embassy reported that a number of changes to the
USAID training process have been made or are underway to address concerns expressed by field staff
and by SIGAR. Reported changes include:

    •   increased emphasis on orientation with USAID programs in Afghanistan and clarification of
        the roles of USAID COTRs;

    •   initiation of USAID-specific training programs to include COTR/AOTR certification, democracy
        and governance fundamentals, and project development;

    •   enhancement of in-country orientation to ensure staff assigned to the field are aware of
        program and project activities implemented at the DST and PRT levels;

    •   development of on-line training to familiarize USAID employees with military structures,
        organizations, and systems; and


SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                             Page 12
    •   development of district stability framework training to be conducted at the COIN Academy for
        all incoming field personnel.

Limited Guidance for Personnel on Some Aspects of Field Work

Many of the officials we spoke to pointed to a lack of clarity from their agencies on various aspects of
their work in the field, including position roles and responsibilities; reporting and supervisory
relationships within the field structure; the implementation of national development programs in the
field; and IPA’s role as it applies to work at field locations. Personnel received limited information on
their roles and responsibilities before arriving at their assigned locations. Several officials noted that
they were not provided full explanations of their expected functions in the field or, in the case of USAID,
the locations of their assignments before they arrived in Kabul. Others pointed to unclear roles within an
interagency structure, stating that field personnel from all agencies have broad, undefined job
descriptions. To resolve some of these issues, officials in RC-East and RC-South are taking steps to draft
more detailed position descriptions to provide more guidance to field personnel. As for advance
notification of assignments for USAID personnel, IPA and USAID officials stated that the agency is
addressing this issue and providing personnel earlier notification of their assigned locations.

Civilians we spoke with also pointed to unclear reporting and supervisory chains, with some civilians
reporting directly to their agency counterparts in Kabul and others reporting through field-level
platforms. In particular, these officials stated that the role of the civilian team leads in the field is unclear
and should be better defined. For example, one RC-East guidance memo defines the roles of brigade
task force and PRT civilian leads as coordinating and shaping stability operations within their areas of
responsibility. However, according to several officials we spoke with in RC-East, this role should not
include formal supervision of team members who are not within their agency. In addition, these officials
stated that this guidance is not always implemented as intended. Alternatively, some management
personnel stated that the civilian leads should be able to assume a more supervisory role in relation to
personnel in their platforms from other agencies. To address this issue, according to senior IPA officials,
IPA will soon issue guidance to help further clarify the reporting and supervisory chains and
responsibilities among senior field personnel at different levels within the field structure. In addition,
personnel have noted bottlenecks and inconsistencies in information flow between Kabul and the field.
For example, on a 2-day site visit conducted in May 2010, senior USAID officials noted concerns about
gaps in information flow between a regional platform and field program officers at the DST level.

Civilians in the field often lack information on national development programs that are implementing in
their areas of operation. According to a 2006 interagency assessment of PRTs in Afghanistan, “…many
DOS and USAID PRT representatives indicated that they did not have reliable access to information
about national projects in their province. Their inability to provide comprehensive information about
U.S. activities to PRT and regional commanders undermined civilian credibility and limited their ability to
integrate their activities with national programs.” During the course of this review, senior civilian
officials stated that, in many instances, USAID field officers have no visibility over national funds
available for the programs implemented in their areas. According to one USAID official, civilians in the
field need knowledge of national programs and other development activities occurring in their areas to
aid in the military’s planning. When civilians cannot provide quick responses to their military
counterparts, they are viewed as being ineffective, which can strain efforts at civilian-military
integration. This lack of information is also deemed to compromise effectiveness on program oversight.

Further, civilians we met with in the field stated that they do not understand IPA’s role and function as it
relates to their work. IPA was criticized for not doing an adequate job of communicating with staff in the
field and not being responsive to issues and problems. Others stated they would encourage IPA to do

SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                 Page 13
more to demonstrate that it is providing useful operational support to field personnel. According to the
U.S. Embassy, as of the first week of October 2010, the Embassy approved the new IPA mission
statement and organizational structure and, on October 4, 2010, IPA issued guidance to the field
defining IPA’s roles and functions.

Inconsistent Models for Civilian-Military Integration

Some field locations have established and are implementing formal, integrated civilian-military
collaboration structures, and some COM personnel we met with in the field advocated examining the
extent to which such models can be applied to field platforms throughout Afghanistan. For example,
Task Force Rakkasans within RC-East has adopted and implemented what they refer to as a “Board of
Directors” model for civilian-military collaboration, both for the task force and the PRTs and DSTs in its
area of operations. According to this model, military and civilian personnel jointly develop priorities,
ensuring a balance between military and civilian missions. Military leadership, the civilian lead, and at
least one civilian representing State, USAID, and USDA make joint decisions about what programs the
platform will implement and set priorities for military and civilian missions requiring movement outside
the platforms. Similarly, the civilian-led PRT in Uruzgan Province has employed a particularly strong
emphasis on international integration as well as civilian-military integration, under the concept that
security, development, and diplomacy are interlinked. 18

Despite these models, the consensus among both civilian and military officials we spoke with is that
civilian-military integration relies primarily on individual personalities even at platforms where more
formal structures exist. Furthermore, an IPA summary of conclusions reached from interviews with
approximately 50 State, USAID, and USDA personnel stationed throughout Afghanistan concluded that
civilian-military integration is occurring because of personal tenacity rather than institutional planning.
The summary added that there are no clear lines of communication for civilians in the field on how to
act with the military portion of their PRTs, or how to delineate “taskings” from their military partners.

Although many civilian and military officials stated that civilian-military integration is going well, some
cited challenges in developing the relationship, stemming from differences in organizational cultures
and perspectives. Several civilian officials we spoke with expressed concern that, in certain geographic
areas, civilians who are embedded with the military at the platforms are tasked and absorbed into the
military operations with little time to devote to development activities or to program oversight. Several
officials within the RC-East area of operations have expressed their opinion that the Board of Directors
model or some kind of clearer guidance on civilian-military integration should be implemented and
applied universally in Afghanistan. In commenting on a draft of this report, the U.S. Embassy noted that
the board of director model used in RC-East is a useful construct that they will explore further in better
integrating civilian and military activities.

Inability to Fully Oversee USAID’s Implementing Partners

To ensure that its programs support the strategic goals of the U.S. government in Afghanistan and
proper oversight is provided for projects across Afghanistan, USAID is undertaking a process to devolve
some program oversight functions to field personnel. The process is ongoing and includes specific
training to meet statutory and agency requirements. Nevertheless, certain factors, such as levels of
expertise and mobility, present challenges to successfully transferring contract and program oversight to
the field.

18
  PRT Uruzgan is currently led by an Australian diplomat after transitioning from Dutch civilian leadership on
August 1, 2010. It consists of Australian, U.S., and Slovakian civilian personnel and military elements. Uruzgan
Province transitioned from Dutch to U.S. military command on August 1, 2010.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                      Page 14
Several USAID officials we spoke to stated that the authority of USAID field personnel to adequately
oversee agency projects implemented in the field is limited. 19 To ensure that its programs support the
strategic goals of the U.S. government in Afghanistan, USAID seeks to devolve greater program
management and contract oversight authority to USAID representatives at the Regional Missions, PRTs,
and DSTs. Devolution of contract authority for the field is specified in a draft USAID Mission Order.
According to the draft order, USAID would assign Contracting Officer’s Technical Representatives
(COTRs) to Kabul and the regional platforms, while designating activity managers at field platforms to
work with the COTRs and implementing partners. Activity managers are responsible for daily
management of one or more specific activities and report to the COTR. USAID field program officers may
be delegated by COTRs as activity managers for USAID programs operating at the provincial or district
levels within their areas of responsibility. As part of such devolution, USAID anticipated the need for
specialized training to ensure accountability and to satisfy U.S. government regulations and USAID
contract and grant oversight policies. One series of such trainings was reportedly scheduled for July
2010.

Because this process is still in its early stages, it is too soon to determine the extent to which USAID will
devolve oversight authorities to the various levels in the field. However, civilian personnel have cited
challenges to successfully increasing oversight. For example, many USAID field personnel, although they
are technical experts, are new to the agency and have limited knowledge of program management
processes and government contracting requirements. One senior USAID official stated that, because
USAID has had difficulties recruiting senior officers for assignment in Afghanistan, there are few
experienced, senior officers to provide new activity managers with leadership and guidance.
Furthermore, poor security can limit the mobility of field officers, preventing them from providing
necessary oversight of implemented projects. Another senior USAID official stated that many USAID field
staff cannot get out of their compounds or bases because civilian movements for development purposes
are considered a relatively low priority for military security details.

Sustainability of the Civilian Uplift at Current Levels May Be Difficult

One goal of the Afghanistan and Pakistan Regional Stabilization Strategy is to sustain increased civilian
staffing levels in Afghanistan beyond July 2011. Nevertheless, concern has been expressed that the
civilian presence in the field may not be sustainable at planned levels. This is particularly true for USAID,
which is drawing personnel from a decreasing pool of qualified applicants, many of whom are recruited
externally. Furthermore, USAID is already facing difficulties recruiting career personnel for assignments
in Afghanistan as many have already completed tours in the country. A July 2010 Embassy cable
expressed similar concerns about State’s limited pool of Foreign Service Officers, noting that
approximately 20 percent of the Foreign Service Officers posted overseas are already serving in
Afghanistan, Iraq, or Pakistan. In addition, the cable noted concerns with USDA’s reliance on its
domestic workforce to fill its positions.




19
  USAID’s primary presence in Afghanistan is through its implementing partners in the field. These partners are
directed by Contracting Officer’s Technical Representatives (COTRs) primarily located in Kabul, who administer and
implement acquisition or assistance awards.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                   Page 15
An Interagency Review of the Civilian Uplift Does Not Include a Comprehensive Examination
of Training, Guidance to the Field, and Standardized Models for Civilian-Military Integration

During the course of our review, the Embassy, in conjunction with State department headquarters,
began an interagency evaluation of the civilian uplift that includes a review of the sustainability of the
increased civilian presence both in Kabul and the field. As of late July 2010, tentative plans called for this
review to examine such issues as personnel recruitment and hiring, staffing levels, tour lengths, and
incentive packages. Discussion in anticipation of the review touched upon preparing staff for
assignments to the field. However, the issues raised did not include a comprehensive examination of
training and guidance provided to civilian personnel working in the field. A key practice for effective
workforce planning is to develop programs and processes, such as training and staff development, to
build workforces that are tailored to agencies’ unique needs. By including a comprehensive review of
training and the guidance necessary for working in the field, agencies can better prepare civilian
personnel for their assignments and provide them with the guidance they need to carry out their duties.

Furthermore, the issues raised in anticipation of the review did not examine how standardized models
for civilian-military integration could be more broadly applied in the field. Successful civilian-military
integration is a core principle of the United States Government Integrated Civilian-Military Campaign
Plan for Support to Afghanistan. Further, according to best practices for interagency collaboration,
agencies should work together to define and agree on their respective roles and responsibilities, and to
establish standards and procedures for operating across agency boundaries. The application of such
standardized models for civilian-military integration is necessary to move personnel in the field away
from relying on ad hoc arrangements and individual personalities.

The Embassy Lacks a Formal Process for Collecting and Applying Lessons Learned and Best
Practices

Another key practice for interagency collaboration is for agencies engaged in collaborative efforts to
monitor and evaluate their efforts to enable them to identify areas for improvement. According to a U.S.
Government Accountability Office report on strategic workforce planning, “Periodic measurement of an
agency’s progress toward human capital goals and the extent that human capital activities contributed
to achieving programmatic goals provides information for effective oversight by identifying performance
shortfalls and appropriate corrective actions.” 20 Our discussions with civilian officials have revealed that
the Embassy lacks a mechanism for formally and systematically collecting, analyzing, and implementing
lessons learned at the field level.

One of the roles of IPA’s Stabilization Tiger Team is to collect best practices and lessons learned from the
field. Although the Tiger Team has responsibility for carrying out this task across all field platforms, it
has a small staff and other competing priorities have prevented it from focusing on fulfilling this
responsibility. For instance, starting in February 2010, the Tiger Team began a series of interviews with
field personnel to learn about their experiences but then was tasked with other assignments that
slowed the process. Although the team prepared and submitted a brief summary of issues stemming
from some field interviews to the U.S. Embassy Kabul’s executive office, no formal and systematic
framework for capturing and applying lessons learned exists.

Officials in the field and at the U.S. Embassy Kabul advocated the creation of a larger team of individuals
dedicated to lessons learned and best practices analysis and activities. Some have pointed to the Center

20
 See GAO-06-15, Results-Oriented Government: Practices That Can Help Enhance and Sustain Collaboration
Among Federal Agencies, October 2005.
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                               Page 16
for Army Lessons Learned (CALL) as a model for the Embassy’s own formal mechanism. CALL is an
organization focused on the collection, analysis, dissemination, and integration of lessons learned to
support combat readiness for soldiers around the world.

One way to systematically collect data is to develop comprehensive surveys on a variety of issues that
can facilitate quantitative analysis. This is a strategy central to program evaluation methodology. As
part of our audit work for determining the levels of life and operational support and revealing key issues
and concerns as part of the civilian uplift, SIGAR had planned to conduct a survey of chief of mission
personnel in the field. However, due to objections by State, we were unable to disseminate the survey.
These objections included concern with the survey’s questions about life and operational support, the
level of civilian-military integration, and challenges associated with working in the field as well as
general demographic information, which State believed should not be part of SIGAR’s review. Although
we were able to talk to almost 40 civilians located in the field, the survey would have provided us, and
the Embassy, with additional quantifiable information on issues in the field at a given point in time. A
series of comprehensive field surveys over the course of the uplift would help monitor and evaluate the
results of the civilian uplift and assist in identifying shortfalls and developing corrective measures. For
example, such surveys could provide measurable indicators of effectiveness in the field and indicators
that would help determine the magnitude of staff concerns about mobility.


CONCLUSION

The U.S. civilian uplift has resulted in an unprecedented increase in the number of U.S. government
civilians in Afghanistan. With 16 departments and agencies represented, ranging from State and USAID
to the Departments of Commerce and Transportation, the uplift will create 626 new positions in Kabul
and the field, and contribute to tripling the size of Chief of Mission personnel in Afghanistan. In the field,
civilians’ life and operational support needs have largely been met, although Afghanistan’s operating
environment presents challenges in providing certain types of support. As the U.S. Embassy in Kabul and
State department headquarters conduct their interagency review of the uplift, officials may need to
examine provisions for training, required guidance for working in the field, and standardized models for
civilian-military integration to determine whether current processes are enabling U.S. government
civilians to be effective in achieving U.S. strategic reconstruction goals. Further, a formal mechanism for
collecting, analyzing, and implementing best practices and lessons learned over the course of the
uplift—to include the design and implementation of a series of comprehensive field surveys—could help
the Embassy to make the changes necessary to improve civilians’ effectiveness in achieving these goals.


RECOMMENDATIONS

To ensure that the interagency evaluation of the civilian uplift is comprehensive, SIGAR recommends
that the U.S. Ambassador to Afghanistan:

    1. Include the following items as part of the interagency review: training, required guidance for
       working in the field, and standardized models for civilian-military integration.
To formally monitor civilians’ effectiveness in the field and identify shortfalls and necessary corrective
actions, SIGAR recommends that the U.S. Ambassador to Afghanistan:

    2. Develop a mechanism for collecting, analyzing, and applying lessons learned and best practices,
       to include the design and implementation of a series of comprehensive field surveys.


SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                               Page 17
COMMENTS

The U.S. Embassy Kabul provided comments on a draft of this report, which are included in appendix II.
In its comments, the U.S. Embassy Kabul generally concurred with the report’s recommendations and
outlined actions it would take to address the report’s recommendations, including:

    •   on-going curriculum reviews by IPA to meet the pre-deployment and field deployment training
        needs of field staff and plans to communicate the intent of civilian-military integration during
        training at the COIN Academy;

    •   changes to USAID’s training program, in Washington D.C. and Afghanistan, including
        enhancements to in-country orientation and on-line training to familiarize USAID employees
        with military structures, organizations, and systems; and

    •   examination of the most effective ways to collect data from field staff.

Although the U.S. Embassy Kabul agreed with our recommendation to include training and required
guidance for working in the field as part of the interagency review, it noted that agencies’ headquarters
in Washington, D.C. should be tasked to review training and analyze and apply lessons learned and best
practices. Our recommendation states that these items as part of the interagency review, which
includes members from the Department of State headquarters. We agree that the U.S. Ambassador
alone is not responsible for developing and providing required training. However, we believe that the
U.S. Embassy has a key role in this interagency review of the civilian uplift where these items should be
addressed.

The U.S. Embassy Kabul agreed to examine ways to obtain observations and collect data from personnel
in the field, but indicated that it is not likely conduct comprehensive field surveys. We believe
comprehensive surveys would be an effective means to gather reliable information to determine if
problems expressed by personnel are wide-spread. For example, such surveys could quantify staff views
of whether they are receiving adequate mobility to engage with Afghan officials. We provided the
Embassy with the survey questionnaire we developed during the course of this audit, which may be
useful to the Embassy in the event they decide to utilize this method of gathering information from the
field.

In addition, the U.S. Embassy Kabul emphasized the unity of effort among civilian agencies under COM
and its application to civilian-military relations and the ability to accomplish the civilian uplift. The
comments also noted significant challenges the U.S. Embassy Kabul faced in the managing the civilian
uplift. In particular, one year assignments for Foreign Service Offices and others assigned to the U.S.
Embassy Kabul severely restrict the amount of training that can be accomplished in the field. Ideally,
the U.S. Embassy Kabul recommends all employees serve an 18-month assignment in Afghanistan, with
any required training preceding assignment.




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                           Page 18
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of the implementation of the civilian uplift in support of U.S.
reconstruction efforts in Afghanistan. This report (1) identifies the types and number of personnel
provided to implement the civilian uplift and assesses the extent to which the life and operational
support needs of these personnel have been met, and (2) identifies key areas of concern raised during
the initial stages of the uplift. We limited the scope of our audit to civilian personnel under chief of
mission (COM) authority. Further, given the strategic focus on efforts at the sub-national level and the
dramatic increase in civilian personnel expected to deploy to the field, we focused primarily on
Department of State (State), U.S. Agency for International Development (USAID), and Department of
Agriculture (USDA) personnel assigned to regional platforms, brigade task forces, provincial
reconstruction teams (PRT), and district support teams (DST) throughout Afghanistan.

To identify the types and number of personnel provided to implement the civilian uplift, we analyzed
U.S. Embassy Kabul Management Office data, current as of September 9, 2010, and Office of
Interagency Provincial Affairs (IPA) data, as of July 12, 2010, on current and projected numbers of
positions created under the U.S. Chief of Mission in Afghanistan and personnel deployed to Afghanistan
as part of the uplift and provided overall totals and subtotals by phase of the uplift, by agency, and by
location. We also examined staffing data from the Regional Platforms. We reviewed U.S. policy and key
strategies for Afghanistan, including the U.S policy toward Afghanistan and Pakistan, the U.S. strategy
for Afghanistan and Pakistan, State’s Afghanistan and Pakistan Regional Stabilization Strategy, and
Embassy Kabul and U.S. Forces-Afghanistan’s (USFOR-A) United States Government Integrated Civilian-
Military Campaign Plan for Support to Afghanistan. We also reviewed State and Embassy cables, staffing
requests, and various Embassy section notes. In addition, we interviewed officials in Embassy
Management, IPA, State, USAID, USDA, and the Departments of Justice and the Treasury. To assess the
extent to which the operational and life support needs were met for additional personnel at the field
level, we analyzed Embassy life and operational support status documents for five locations in Regional
Command (RC) South to assess the level of support provided for COM civilians at those locations. We
also reviewed Embassy Kabul memoranda of understanding and memoranda of agreement (MOA) with
USFOR-A, the Commander of the International Security Assistance Force, and coalition partners for the
provision of life support, mobility, and security; an interagency MOA between State, USAID, and USDA
for supporting agency personnel in the field; the results of IPA’s April 2010 survey of field mobility; and
Embassy cables. During June and July 2010, we conducted site visits to the following field locations in
RC-East and RC-South to interview U.S. civilian, military, and coalition personnel: Regional Platforms East
and South; Task Forces Wolverine and Rakkasans; PRTs Panjshir, Gardez, Sharana, and Uruzgan; and
DSTs Zormat, Orgun East, Jaji, and Zardan. In addition, we interviewed officials in Embassy Management,
IPA, State, USAID, and USDA at Embassy Kabul; senior civilian representatives for Regional Platforms
East, North, South, and West; and field personnel transiting though Kabul.

To identify key areas of concern raised during the initial stages of the uplift, we reviewed U.S. policy and
key strategies for Afghanistan, Embassy Kabul cables, and USAID draft mission orders and documents
describing contract and grant oversight responsibilities. We also reviewed U.S. Government
Accountability Office reports on key practices for interagency collaboration and strategic workforce
planning as well as information on the Center for Army Lessons Learned. We conducted site visits to
various field locations and interviewed civilian, military, and coalition personnel. In addition, we
interviewed officials in Embassy Management, IPA, and USAID at the Embassy; senior civilian
representatives; and field personnel transiting through Kabul. In August and September 2010, we
provided preliminary briefings for the Assistant Chief of Mission at Embassy Kabul and the IPA
Coordinator, and obtained information on current efforts and State’s planned internal review of the
civilian uplift.

SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                              Page 19
As part of our audit, we planned to conduct a survey of all COM civilian personnel located in the field at
regional platforms, brigade task forces, PRTs, and DSTs. This survey would have included questions on
life and operational support; coordination with the military and other partners; supervisory and
reporting chains; guidance and training; and demographic information on the person’s agency, location,
job title, and related prior work experience. This would have allowed us to obtain a comprehensive
perspective with quantifiable data on issues that have arisen in the field during the initial stages of the
uplift. However, due to objections by the Department of State, we were unable to disseminate the
survey.

During the planning stage of the review, we considered whether the use of computer-processed data,
internal controls, compliance with laws, regulations, or provisions of contracts and grant agreements,
and fraud risk were significant to the audit objectives. We determined that none of these elements was
significant.

We conducted work from April to September 2010 at various locations in Afghanistan in accordance
with generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. The performance audit
was conducted by SIGAR under the authority of Public Law No. 110-181, and the Inspector General Act
of 1978, as amended.




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                             Page 20
APPENDIX II: U.S. AGENCY ROLES IN RECONSTRUCTION EFFORTS IN AFGHANISTAN

Table I lists the various departments and agencies involved in the civilian uplift, the strategic lines of
effort they are contributing to, and examples of programs supporting these lines of efforts.
Table I: U.S. Departments and Agencies Contributing Personnel to the Civilian Uplift in Afghanistan
                                           Strategic Line
Department/Agency                                                          Example of Supporting Programs
                                              of Effort
                                          Governance,        Mentoring and advising Afghan government officials at the
Department of State
                                          rule of law        national and sub-national levels

                                                             Mentoring and advising Afghan government officials at the
                                          Governance,        national and sub-national levels; managing development
U.S. Agency for International
                                          rule of law,       programs, including the Local Governance and Community
Development
                                          development        Development program and Afghanistan Vouchers for
                                                             Increased Production in Agriculture

                                          Governance,        Mentoring Afghan government officials at the Ministry of
Department of Agriculture
                                          development        Agriculture, Irrigation, and Livestock, and local officials

Department of Homeland Security           Rule of law
                                                             Advising, mentoring, training, and equipping Afghan
   Customs and Border Patrol              Rule of law
                                                             border, customs, and related entities to enforce Afghan
   Immigration and Customs                                   customs and immigration law
                                          Rule of law
   Enforcement

   Transportation Security                Governance,        Assisting with efforts to enhance airport and aircraft
   Administration                         development        security by providing technical expertise to Afghan officials

                                                             Mentoring Afghan prosecutors and judges in handling
Department of Justice                     Rule of law
                                                             counternarcotics, corruption, and terrorism cases

   Drug Enforcement Administration Rule of law
                                                             Training and mentoring Afghan National Police and other
   Federal Bureau of Investigation        Rule of law
                                                             law enforcement personnel
   U.S. Marshals Service                  Rule of law

                                                             Advising and mentoring Afghan officials in the Ministry of
                                          Governance,
Department of the Treasury                                   Finance and line ministries on budget execution and audit
                                          rule of law
                                                             capabilities

                                          Governance,        Advising Minister of Transport and Civil Aviation; assisting
Department of Transportation
                                          development        Afghan officials with a variety of issues, such as drafting
                                          Governance,        civil aviation law and providing technical assistance on
   Federal Aviation Administration                           surface transportation planning
                                          development

                                                             Overseeing Department of Health and Human Services
Centers for Disease Control and
                                          Development        programs, including initiatives to improve maternal and
Prevention
                                                             child health

                                                             Assisting with efforts to promote economic development,
Department of Commerce                    Development
                                                             trade, and commercial relations

Source: SIGAR analysis of U.S. strategies for Afghanistan, agency documents, and interviews with agency officials.



SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                                              Page 21
APPENDIX III: COMMENTS FROM THE U.S. EMBASSY IN KABUL




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 22
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 23
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 24
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 25
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 26
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 27
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 28
SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift   Page 29
                   (This report was conducted under the audit project code SIGAR-021A).




SIGAR Audit-11-2 Strategy and Oversight/Civilian Uplift                                   Page 30
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
